<html>
<title> - U.S.-INDIA COUNTERTERRORISM COOPERATION: DEEPENING THE PARTNERSHIP</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
   U.S.-INDIA COUNTERTERRORISM COOPERATION: DEEPENING THE PARTNERSHIP

=======================================================================

                                HEARING

                               BEFORE THE

         SUBCOMMITTEE ON TERRORISM, NONPROLIFERATION, AND TRADE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 14, 2011

                               __________

                           Serial No. 112-62

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
68-297                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7a1d0a153a190f090e121f160a5419151754">[email&#160;protected]</a>  


                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey
EDWARD R. ROYCE, California          BRAD SHERMAN, California
STEVE CHABOT, Ohio                   ELIOT L. ENGEL, New York
RON PAUL, Texas                      GREGORY W. MEEKS, New York
MIKE PENCE, Indiana                  RUSS CARNAHAN, Missouri
JOE WILSON, South Carolina           ALBIO SIRES, New Jersey
CONNIE MACK, Florida                 GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
MICHAEL T. McCAUL, Texas             DENNIS CARDOZA, California
TED POE, Texas                       BEN CHANDLER, Kentucky
GUS M. BILIRAKIS, Florida            BRIAN HIGGINS, New York
JEAN SCHMIDT, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
BILL JOHNSON, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
DAVID RIVERA, Florida                FREDERICA WILSON, Florida
MIKE KELLY, Pennsylvania             KAREN BASS, California
TIM GRIFFIN, Arkansas                WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
VACANT
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director
                                 ------                                

         Subcommittee on Terrorism, Nonproliferation, and Trade

                 EDWARD R. ROYCE, California, Chairman
TED POE, Texas                       BRAD SHERMAN, California
JEFF DUNCAN, South Carolina          DAVID CICILLINE, Rhode Island
BILL JOHNSON, Ohio                   GERALD E. CONNOLLY, Virginia
TIM GRIFFIN, Arkansas                BRIAN HIGGINS, New York
ANN MARIE BUERKLE, New York          ALLYSON SCHWARTZ, Pennsylvania
RENEE ELLMERS, North Carolina


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Ms. Lisa Curtis, senior research fellow, Asian Studies Center, 
  The Heritage Foundation........................................     4
Mr. Frank Cilluffo, associate vice president, director, Homeland 
  Security Policy Institute, The George Washington University....    16
S. Amer Latif, Ph.D., visiting fellow, Wadhwani Chair in U.S.-
  India Policy Studies, Center for Strategic and International 
  Studies........................................................    31

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Ms. Lisa Curtis: Prepared statement..............................     6
Mr. Frank Cilluffo: Prepared statement...........................    19
S. Amer Latif, Ph.D.: Prepared statement.........................    33

                                APPENDIX

Hearing notice...................................................    46
Hearing minutes..................................................    47


   U.S.-INDIA COUNTERTERRORISM COOPERATION: DEEPENING THE PARTNERSHIP

                              ----------                              


                     WEDNESDAY, SEPTEMBER 14, 2011

              House of Representatives,    
                     Subcommittee on Terrorism,    
                           Nonproliferation, and Trade,    
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2 o'clock p.m., 
in room 2200 Rayburn House Office Building, Hon. Edward R. 
Royce (chairman of the subcommittee) presiding.
    Mr. Royce. Today, we will examine U.S.-India 
counterterrorism cooperation. Of course, this hearing comes 
after our memorial for 9/11. And it comes right after India has 
again suffered a terrorist attack. Last week, a powerful bomb 
decimated part of one of New Delhi's high profile courthouses. 
It killed dozens of people. Scores of people were also injured. 
A few months ago, a coordinated triple bombing struck Mumbai, 
and that attack came during rush hour. Indian authorities are 
still searching for answers.
    July's coordinated Mumbai attack brought back the horrors 
of 26/11 to India. Three years ago, a coordinated rampage 
rocked this great city. It killed 166. And in that total were 
six Americans who were killed. But unlike in 2008, this time 
India authorities responded more rapidly, though there is still 
frustration in India. Defending an open country of India's size 
is no easy task. Mumbai is particularly challenging. It's got a 
population of 20 million people. Fortunately, there are good 
opportunities for the United States to increase its 
counterterrorism cooperation with India. I visited Mumbai after 
the 26/11 attacks and had an opportunity at that time to not 
only talk with the Prime Minister about this subject, but to 
talk to the head of the counterterrorism operations in India 
about the necessity of closer cooperation between the United 
States and India.
    I think the two countries have worked together on this for 
over a decade in terms of discussions that I'm cognizant of. 
But by all accounts, this cooperation substantially improved 
after the 2008 Mumbai attacks, when investigators from both 
countries stood shoulder-to-shoulder in response. The 
Counterterrorism Cooperation Initiative, Homeland Security 
Dialogue and other working groups plug along. This April, the 
FBI, working with the Indian Home Ministry, hosted 39 senior 
police executives from across India in Los Angeles, where they 
participated in an exchange on counterterrorism, crisis 
response and megacity policing. They visited the FBI's Regional 
Computer Forensics Laboratory in Orange, California, a city I 
represent, to be trained in all aspects of digital evidence 
recovery.
    This is good, but I'd like to get to a point where our 
counterterrorism exchanges are just as high profile, just as 
numerous, just as unprecedented as our combined military 
exercises with India are. I think Secretary Clinton had it 
right this July when she stressed in India ``how important it 
is that we get results'' from all of our counterterrorism 
agreements.
    Let's be clear: This is more than just helping a democratic 
ally. There are real, hard U.S. interests at stake. Simply put, 
the militants targeting India are also the militants targeting 
us. Indeed, at a subcommittee hearing on the ``Future of al-
Qaeda'' after bin Laden's death, many experts placed just as 
much importance on Pakistan-based LeT as any al-Qaeda 
affiliate. LeT is India's mortal enemy, and it has gone global, 
with Western targets in its sights.
    This week Vice President Biden said of Pakistan, ``They 
have to get better. We are demanding it.'' But are we? Last 
month, the Wall Street Journal reported that the U.S. has begun 
to condition security assistance to Pakistan on a ``secret 
scorecard of U.S. objectives to combat al-Qaeda and its 
militant allies.'' Although details are classified, from the 
Journal's reporting, it does not seem that the U.S. has put 
emphasis on Pakistan making further progress on the Mumbai 
attackers or LeT in this ``scorecard.''
    This would be shortsighted if it's the case. And I think 
this has to do with tearing down barriers that might be in the 
way of greater cooperation with India. As one witness will 
testify, ``The U.S. cannot allow its national security to be 
held hostage by nearly two decades of unfulfilled expectations 
in Pakistan.''
    In the past decade, U.S. relations with India have grown 
considerably. But we've hit a lull. Counterterrorism 
cooperation is a way to reinvigorate this relationship, and 
it's a way to better protect America.
    I'll now turn to the ranking member for his opening 
statement, Mr. Sherman.
    Mr. Sherman. Thank you, Mr. Chairman, for these important 
hearings today and for that opening statement that I want to 
associate myself with. I look forward to hearing from our 
witnesses on how to further increase our counterterrorism 
cooperation with an important and democratic friend, India. I 
also note that we are the Terrorism, Nonproliferation, and 
Trade Subcommittee and look forward to our subcommittee 
focusing on how to expand American exports to India as well.
    As has been noted, the U.S.-India relationship is one of 
the most important bilateral relationships in the world for the 
21st century. Despite significant improvements since the end of 
the Cold War, there has been significant distrust and 
bureaucratic impediments to better relations. Commercial 
relations, as I've mentioned, are often portrayed as a bright 
spot, but American firms have not benefitted as much as we had 
hoped from India's efforts to modernize its military equipment 
and develop civilian nuclear power, and that's just two 
examples.
    While it was inconceivable just a few years ago for U.S. 
firms to even seriously be considered for such projects as 
India's jet fighter needs, now our jet fighters are considered, 
but ultimately the U.S. firms were not selected earlier this 
year.
    We see a similar picture in counterterrorism cooperation in 
other areas. Relationships have improved. They have reached new 
heights. The level of cooperation and mutual assistance after 
the 2008 Mumbai attacks were remarkable, but old, lingering 
distrust and suspicions continue to hamper needed deeper 
cooperation.
    Last week a powerful bomb placed in a briefcase exploded in 
a reception area of the Delhi High Court killing 12, wounding 
70. Harakat-ul-Jihad-i-Islami, an al-Qaeda-linked group with 
bases in Pakistan and Bangladesh, appears to be behind that 
latest attack. The groups that target India may not be the same 
exact groups that target the U.S., but they have major contacts 
and indeed overlap with al-Qaeda and they share a similar pan-
Islamic ideology, although often the groups that target India 
have a more local anti-India focus, rather than a world-wide 
focus.
    Deeper intelligence sharing has benefitted both countries. 
Further improvements are needed. Due to its sensitivity and 
strong bureaucratic prerogative this is also one of the most 
challenging areas for greater cooperation.
    I bring up the subject of Pakistan. We should not have our 
need to cooperate with Pakistan hinder our cooperation with 
India and I've consistently called the State Department and 
others in our Government to call out Pakistan for its often 
duplicitous role in the struggle against terror. Pakistan's 
intelligence service, ISI, has for too long aided violent 
extremists, several Pakistani groups, including as the chairman 
mentioned, Lashkar-e-Tayyiba--and I apologize to those who are 
familiar with South Asian languages for my pronunciation--
Jaish-e-Mohammed, have links to al-Qaeda. These groups have 
launched numerous attacks against the Indian population and 
government, including the deadly assault against the Indian 
Parliament in New Dehli in 2001. The hands of Pakistan's 
Government are also seen in the 26/11 2008 attacks in Mumbai, 
using the Indian way of identifying month and date, that is to 
say the 26th of November 2008.
    Failure to point out the Pakistani connection to this 
terrorism will only serve to perpetuate it. We have to work 
with those we can in Pakistan but we must be more effective in 
calling out, and in the words of Secretary Clinton, ``lean hard 
on Islamabad.''
    At the same time, the present administration is rightly 
building on efforts of its predecessors to deepen 
counterterrorism ties with India. In July 2010, the U.S. and 
India signed a Bilateral Counterterrorism Cooperative 
Initiative Memorandum of Understanding. This MOU was followed 
by the creation of a Homeland Security Dialogue during 
President Obama's visit to India. We only have such a dialogue 
with a handful of our closest allies. Secretary Napolitano led 
a delegation to India earlier this year, holding the first 
dialogue meeting in New Dehli. This high-level focus will 
hopefully play a significant role in efforts to break the 
patterns of bureaucratic lack of communication that we've seen 
in the past.
    Again, Mr. Chairman, thank you very much for holding these 
hearings. As it happens, as you know, the Financial Services 
subcommittee is having a hearing of importance to Southern 
California as well, so any part of this hearing that I miss I 
know will be on tape and on disk for me to watch over the next 
couple of days. Thank you.
    Mr. Royce. Thank you very much, Mr. Sherman. We're going to 
go to our distinguished panel at this time and we'll start with 
Ms. Lisa Curtis. She is a senior research fellow for South Asia 
at The Heritage Foundation and before joining Heritage, Lisa 
served on the staff of the Senate Foreign Relations Committee. 
She also served with the State Department and with the Central 
Intelligence Agency and has appeared before the House numerous 
times. And we welcome her back.
    Mr. Frank Cilluffo is associate vice president and director 
of the Homeland Security Policy Institute at George Washington 
University. He served in the White House as Special Assistant 
to the President for homeland security and he's one of the 
leading experts on terrorism and homeland security.
    We have Dr. Amer Latif with us as well, a visiting fellow 
for U.S.-Indian Policy Studies at the Center for Strategic and 
International Studies. He was director for South Asian Affairs 
in the Office of the Under Secretary of Defense for Policy, 
responsible for defense relations with India and surrounding 
countries.
    All of the witnesses have submitted their testimony. It's 
already part of the written record, so we will ask you all to 
abbreviate, make a 5-minute presentation and then we'll go to 
questioning. We'll start with Ms. Curtis.

  STATEMENT OF MS. LISA CURTIS, SENIOR RESEARCH FELLOW, ASIAN 
            STUDIES CENTER, THE HERITAGE FOUNDATION

    Ms. Curtis. Thank you very much for inviting me here today 
to testify on U.S.-India counterterrorism cooperation. The U.S. 
and India are under threat from terrorists that seek to disrupt 
our country's democratic way of life, our economic progress, 
and indeed, to strike terror among our people. And this point 
was driven home, as you both mentioned, last week with the 
attacks in New Dehli, as well as the threat information that 
came to light that terrorists might be preparing to attack New 
York City and Washington, DC, on the 10-year anniversary of the 
9/11 attacks.
    Now India's failure to identify a specific organization 
responsible for the bombing in New Dehli partly defines the 
evolving nature of the threat that India faces. Analysts there 
are increasingly focusing on networks of individuals and the 
possibility that small groups of Indians may be working with 
Pakistan-based terrorist groups like the Lashkar-e-Tayyiba or 
the Harakat-ul-Jihadi Islami. And the reality that India faces 
a threat from homegrown Islamic terrorists was acknowledged by 
India's home minister.
    Now India has taken some important steps to improve its 
counterterrorism capabilities since the 2008 Mumbai attacks 
such as establishing the National Investigative Agency much 
like our FBI and strengthening it's antiterrorism laws. But it 
must do far more to cope with persistent threat it faces. And 
the amount of resources that India has invested in bolstering 
its counterterrorism capabilities has simply failed to meet the 
challenge at hand.
    Now immediately following the Mumbai attacks, as you 
mentioned, Chairman Royce, Washington and New Dehli broke down 
many bureaucratic barriers to their counterterrorism 
cooperation. But unfortunately, the handling of the David 
Coleman Headley case revived to some extent Indian mistrust of 
the U.S. and its handling of terrorism cases implicating 
Pakistan. Striking revelations of the LeT's international reach 
and connections to Pakistani intelligence emerged from the 
trials of David C. Headley and his accomplish Tahawwur Rana. 
But it took almost 9 months before Indian authorities were 
given direct access to Headley. Moreover, the U.S. failure to 
pressure Pakistan to arrest intelligence officers named by 
Headley as involved in the Mumbai attacks reinforced Indian 
beliefs that the U.S. will gloss over Pakistani involvement in 
attacks on India so long as Pakistan continues to cooperate 
with the U.S. against groups that threaten the U.S. homeland.
    To some extent, India is right. In the past, the U.S. has 
viewed the LeT, Lashkar-e-Tayyiba, only through an Indo-
Pakistani prism, rather than as part of the international 
terrorist syndicate. Thankfully, opinions within the U.S. 
administration are beginning to change on this issue. And as 
you know, the dangers of the LeT and its link to global 
terrorism are well known and I won't spend time going over 
those.
    I think a hesitant U.S. approach to sharing information on 
Pakistan-based terrorist groups with India does not serve U.S. 
interests. Indeed, it cripples the U.S. ability to fully get a 
handle on the terrorism threat in South Asia because by 
choosing to view the activities of al-Qaeda and other Pakistan-
based terrorist groups through a separate lens, U.S. officials 
have failed to hold Pakistan fully accountable for dealing with 
the terrorists located on its territory. And indeed, Pakistan's 
tolerance of groups like the Lashkar-e-Tayyiba have facilitated 
al-Qaeda's ability to operate from Pakistan and Osama bin 
Laden's ability to hide in the country as long as he did.
    So hopefully, the U.S.-India Homeland Security Dialogue 
that was launched in May will help overcome some of this 
mistrust between our two countries and provide fresh 
opportunities to enhance our counterterrorism cooperation and 
beyond enhancing intelligence sharing, I think the U.S. should 
also position itself as a resource for India as India seeks to 
improve it's own homeland security. For instance, improving the 
security of cities, large cities like Mumbai will require 
investment from international companies that can provide state-
of-the-art technology and products that help protect critical 
infrastructure and here, U.S. companies certainly have a role 
to play.
    The two countries can also look at the issue of 
deradicalization in their counterterrorism dialogue. I think 
this is an area that merits further exploration. Home Minister 
Chidambaram's acknowledge that Indian citizens have been 
involved in recent acts of terrorism should drive the 
government to deal with the issue of Muslim alienation. I think 
because of the history of Hindu-Muslim communal violence in 
India, Indian officials up until now have been somewhat 
reluctant to admit the homegrown Islamic threat.
    Lastly, I think the U.S. can help India with training and 
equipping its police forces. Ultimately, it is India that must 
raise its budgets for its own homeland security needs. However, 
the U.S. can enhance police exchanges and provide training, to 
share best practices and ideas for enhancing community policing 
and intelligence gathering.
    That concludes my remarks. Thank you.
    [The prepared statement of Ms. Curtis follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Ms. Curtis. Thank you very much.
    Mr. Royce. We'll go now to our next witness.

  STATEMENT OF MR. FRANK CILLUFFO, ASSOCIATE VICE PRESIDENT, 
   DIRECTOR, HOMELAND SECURITY POLICY INSTITUTE, THE GEORGE 
                     WASHINGTON UNIVERSITY

    Mr. Cilluffo. Thank you, Mr. Chairman. Thank you, Ranking 
Member Sherman. Thanks for the opportunity to appear before you 
today. I will be exceptionally brief, not my strong suit since 
I've never had an unspoken thought, but I will try to get this 
within the 5 minutes.
    Obviously, U.S.-India counterterrorism cooperation in the 
face of the shared threat both of you have already eloquently 
laid out has not been all that it could be. I would argue this 
is to the detriment of both of our countries. The leadership in 
this area is to be commended and it should help, I think, 
bolster the security posture of America and India alike.
    As everyone has already mentioned, we share a number of 
common threats, concerns and tragedies, most notably 9/11 and 
26/11. And just like we saw in the United States, India, too, 
is going through major efforts and calls for reform, some of 
which are making some significant progress. It is vital, I 
think, that the U.S. work with the Indian Government to 
strengthen our security efforts and develop common, best 
practices and intelligence-sharing protocols among U.S. and 
Indian law enforcement and the intelligence community, as well 
as the security services--those responsible for internal 
security.
    I don't make these recommendations lightly and I recognize 
the challenges they pose at both the operational and strategic 
level, especially in regard to Pakistan. Yet, I am equally 
cognizant of the fact that India is a key democratic ally in an 
unstable region dominated by extremism from jihadists and 
Islamic separatists operating in Jammu and Kashmir, to Maoists 
in the Naxalite belt, to the reemergence of Sikh extremism. 
Simply put, they live in a tough neighborhood.
    Furthermore, these threats affect not only Indian public 
safety, but also directly threaten U.S. national security 
interests and I would argue jihadi extremism posing the 
greatest threat of all. Yes, enhanced cooperation with India 
will complicate U.S. cooperation with Pakistan. The truth is, 
however, that this cooperation has been erratic at best and 
varies based on the political climate and bureaucratic 
interests in Islamabad. While there is some recent good news 
such as the arrest of Younis al-Mauritani, the U.S. cannot 
allow, as you mentioned, Mr. Chairman, our national security to 
be held hostage by unfulfilled expectations in Pakistan.
    Just a few words on the current threat environment as I 
think it should predicate U.S. and Indian counterterrorism 
efforts. We have seen that the threat is morphing. It's 
metastasized. It comes in various shapes, sizes, flavors, and 
forms, ranging from al-Qaeda senior leadership--no, 
unfortunately, ding dong, the witch is not dead after Osama bin 
Laden was killed. We still have a threat that is very 
significant from al-Qaeda senior leadership and its affiliates, 
most notably al-Qaeda in the Arabian peninsula, operating out 
of Yemen, but also al-Qaeda in the Islamic Maghreb operating 
out of North Africa and the Sahel. And I might note, Mr. 
Chairman, you had an excellent blog post on AQIM's linkages to 
Boko Haram, as well as, obviously, al-Shabaab in Somalia. So 
the threat itself is morphing and it's changing and we've got 
to be ready for it.
    More regionally, as it pertains to this particular hearing, 
we've seen the conflation of Jihadi organizations in Pakistan. 
This witch's brew of organizations from the Haqqani Network or 
HQN to Lashkar-e-Tayyiba from Tehrik-e-Taliban to HuJI, from 
JEM to the Islamic Jihad Union to the Islamic Movement of 
Uzbekistan, all these groups to some extent or another are 
coming together, sometimes tactically, sometimes strategically, 
but they're all linked by an affinity for a Jihadi narrative 
and ideology.
    I think of unique significance is that many of these groups 
historically had discrete and narrow objectives. Now they're 
ascribing and subscribing more and more to al-Qaeda's goals, 
visions, and objectives. That is a unique set of issues for the 
United States. And all have found refuge and safe haven in 
Pakistan.
    I want to highlight just three--the Haqqani Network, 
Lashkar-e-Tayyiba, and HuJI--as organizations that pose serious 
security implications for the United States, for India, and 
yes, even for Pakistan. Time prohibits me to get into any 
specificity here, but one thing I wanted to reinforce is it's 
critical that we work with Pakistan and hold them accountable 
to take additional action. To me, the big litmus test here is 
whether or not they are willing to sever their ties to LeT and 
HQN and no longer view them as proxies to influence events in 
Afghanistan and India, respectively. With respect to HQN, this 
has huge implications for the future--to the future U.S. role 
in Afghanistan. So we need to hold them accountable on that 
front.
    Bottom line, why Yemen, why Somalia, why the Sahel, why 
Waziristan, why FATA? These are un- and under-governed spaces. 
It provides the terrorists the time and the space to move. We 
need to be able to address these issues because the host 
nations either lack the political will or the capacity or a 
combination of both to address these issues. So in short, I 
think that what we need is a combination of intelligence, 
paramilitary force, conventional force, and policing. Now is 
not the time to ease off the gas pedal. Now is the time to push 
hard. Right now, they are on their heels, they're on their back 
feet. But the bottom line is to think of it as suppressive 
fire. The reason they're on their back feet is because I'd 
rather them looking over their shoulder not knowing when 
they're going to get hit than having the time to plot, train, 
and execute attacks. So I just caution drones, SOF, way to go, 
happy to go into that in much greater length.
    And I'll just wrap up very briefly because I agree very 
much with what Lisa has laid out in terms of U.S.-India going 
forward, but two impediments to intelligence sharing. One, the 
Indians do have to take very seriously the endemic corruption 
within their police forces. Two, there are concerns about the 
Russian and former KGB connection to the intelligence security 
services of India, most notably R&AW. So we need further 
assurances to be able to make sure that that information can be 
protected.
    My bottom line here is law enforcement to law enforcement 
is the way to go, not only federally, and we need to get down 
to not only these strategic conversations, but down to the mid-
level to ensure that these become reality.
    I'll stop at that. I tried to do it within 5 minutes. Mea 
culpa for going over. Thank you.
    [The prepared statement of Mr. Cilluffo follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Royce. Thank you, Mr. Cilluffo.
    Dr. Latif, go ahead.

 STATEMENT OF S. AMER LATIF, PH.D., VISITING FELLOW, WADHWANI 
 CHAIR IN U.S.-INDIA POLICY STUDIES, CENTER FOR STRATEGIC AND 
                     INTERNATIONAL STUDIES

    Mr. Latif. Thank you, Mr. Chairman. Mr. Chairman, Ranking 
Member Sherman, members of the subcommittee, thank you for 
inviting me to testify here today on the issue of the U.S.-
India counterterrorism cooperation.
    I'd like to mention at the outset that the views that I 
express here during the testimony are my own and do not 
necessarily represent those of CSIS or the Department of 
Defense.
    Mr. Chairman, it is timely for this committee to be holding 
this hearing on U.S.-India counterterrorism cooperation, given 
the terrorists attacks which you've mentioned in your opening 
statement. It is useful at this juncture to be able to evaluate 
the status of our counterterrorism efforts, assess the progress 
to date, understand existing challenges, and propose ways to 
advance the partnership.
    Mr. Chairman, I would like to take this opportunity to 
quickly summarize some of the highlights of my written 
testimony which I have already submitted for the record. To 
begin, it's important to note that the U.S. and India have made 
notable progress on counterterrorism cooperation since 2000 
when the Counterterrorism Joint Working Group was established. 
In July of last year, the U.S. and India signed the 
Counterterrorism Cooperation Initiative or the CCI, which 
outlined a range of areas for cooperation. And this May, of 
course, we had the Homeland Security Dialogue held in New 
Dehli. Intelligence sharing appears to have deepened after the 
26/11 attacks as well. However, the progress that's been made 
over the past decade could plateau in the future due to 
challenges facing bilateral counterterrorism cooperation.
    Let me briefly outline three challenges for your 
consideration. Number one, the lack of bureaucratic alignment 
and optimal communication between the U.S. and India and within 
their respective bureaucracies. The Indian and American 
bureaucracies are not communicating or coordinating as 
effectively as they might, due to markedly different structures 
and bureaucratic cultures. Within the U.S., you have a number 
of CT-related dialogues that have CT-related issues and also 
unclear leads and responsibilities for particular U.S. 
agencies. On the Indian side, you have limited bureaucratic 
capacity and also a centralized decision making system which 
makes decisions very, very slow.
    The second challenge I would outline is that each side has 
a different view of terrorism priorities. While both sides 
agree on the need to fight the scourge of terrorism, there are 
concerns in New Dehli about Washington's relationship with 
Pakistan and that the U.S. is not doing enough to pressure 
Pakistan in dismantling Lashkar-e-Tayyiba.
    Third, I would say that India harbors doubts about whether 
or not Washington is going to be fully transparent and 
forthcoming with intelligence in the wake of the David Headley 
case.
    So Mr. Chairman, let me now briefly outline some ideas of 
where the U.S. and India might advance counterterrorism 
cooperation. Number one, streamline the working groups and 
bureaucratic procedures between both sides. The U.S. and India 
should agree to have the Department of Homeland Security and 
the Home Ministry as the conduits for all CT cooperation. There 
should also be a bilateral comprehensive review of all 
dialogues with CT equities to determine which groups could be 
consolidated into others, left to their own, or eliminated 
outright.
    Second, Washington should continue to apply pressure to 
Pakistan on completely dismantling all Lashkar-e-Tayyiba 
infrastructure.
    Third, there ought to be an intensification of the 
bilateral intelligence dialogue between the U.S. and India on 
Afghanistan. As the U.S. begins to withdrawn from Afghanistan, 
Indians will have a lot of concerns about the nature of 
stability. Having an intelligence dialogue on Afghanistan would 
be an excellent way to be able to build confidence and 
counterterrorism cooperation between the U.S. and India.
    And finally, Mr. Chairman, I would like to offer the idea 
of the U.S. and Indian sides working together to harden the 
Indian periphery. What I mean here is that the U.S. and India 
should work together to build the border security and 
counterterrorism capacities of India's bordering countries to 
include Nepal, Bangladesh, Sri Lanka, and the Maldives.
    Lashkar-e-Tayyiba is a very dynamic organization and has 
also proven its ability to be able to exploit ungoverned or 
poorly governed spaces in these areas. Having the United States 
and India work together toward building the CT capacities in 
these countries would be able to make India much, much safer.
    Mr. Chairman, while there are challenges to greater CT 
cooperation, the strategic stakes are too high for both sides 
to allow their efforts to lag. Once again, I would like to 
thank you for allowing me to appear before the committee and I 
look forward to your questions.
    [The prepared statement of Mr. Latif follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Royce. Thank you, Mr. Latif.
    Let me ask Ms. Curtis a question and it goes to a statement 
that Secretary Clinton made in July. She called for Pakistan to 
prosecute the perpetrators of the 2008 Mumbai attacks, 
transparently, fully, and urgently. On the other hand, the 
State Department's recently released Annual Terrorism Report 
found that Pakistan's antiterrorism courts that have been set 
up in Pakistan that are supposed to work under the rule of law, 
but the acquittal rate is something like 75 percent. There's a 
real question that they're really plagued by a situation where 
they're almost incapable of prosecuting suspected suspects or 
terrorists to date.
    Given that, do we have any hope that the Mumbai attackers 
will face justice?
    Ms. Curtis. Thank you. I want to go to a comment that you 
made in your opening statement that I completely agree with 
that the LeT should be part of that secret report card that we 
have developed with Pakistan in terms of benchmarks that they 
need to meet because as I said in my testimony, both written 
and oral, the LeT does have links to al-Qaeda. They are an 
international danger. We should in no way give Pakistan the 
impression that we will give them a pass on the LeT, so long as 
they take steps on terrorists like al-Zawahiri and other al-
Qaeda leaders. I think we need to put a full court press on 
both issues because they are related and they both affect our 
security as well as India's.
    In terms of the question will they actually move forward 
with prosecution. They have detained LeT leaders, but they have 
failed--it's been almost 3 years now and they have not moved 
forward with prosecuting these individuals. I think it's 
completely unacceptable. And where you talk about the 
challenges in the court system and their inability to prosecute 
individuals, I believe that it's really a lack of political 
will at the top. And that is a message is sent from the top 
levels of the Pakistani leadership and here I'm talking about 
the Pakistan military and intelligence agencies, to move 
forward I think Pakistan could. So I think we need to keep the 
pressure on, make it clear that if Pakistan doesn't move 
forward with these prosecutions, it's going to increasingly 
lead to Pakistan's international isolation and ultimately 
weaken its position in the region. I think this is the message 
that we need to keep driving home to the Pakistanis and it does 
need to be at the top of our priority list and so that comes 
back to the point that you're absolutely right, it has to be 
part of that report card.
    Mr. Royce. Maybe Mr. Sherman and myself, given our 
concurrence on the view on this should write the administration 
on this subject. I look forward to work with you on that, Brad.
    Let me ask you also about the Karachi Project. One of the 
things I wanted to get to was the link between LeT and the 
Indian Mujahideen and the Students Islamic Movement of India.
    The Karachi Project, you indicate Pakistani intelligence 
and LeT worked to motivate and equip Indians to attack their 
own country, right? Can you go into a little detail on that? 
Can you expand on it a little bit?
    Ms. Curtis. Yes, first let me give a little bit of history. 
The Students Islamic Movement of India, SIMI, that you 
mentioned, have been around for a long time since the early 
'90s. And they were sort of functioning within the country, but 
it wasn't until around the attacks of 9/11 that they were 
perceived as a real danger to India. And they were outlawed at 
that time and they had made statements supporting al-Qaeda. And 
there is a belief that the Indian Mujahideen, some of its 
leaders may have been some of the same individuals that were 
involved with SIMI. So the Indian Mujahideen may be an 
evolution of that SIMI group which, of course, then it would be 
an indigenous group, made up mostly of Indians.
    And the interesting thing is there were many attacks in 
2007, 2008, for which the Indian Mujahideen claimed 
responsibility in India and the 2008 Mumbai attacks were 
different in that it was obviously the Lashkar-e-Tayyiba, the 
Pakistan-based group that was involved. But I think the Karachi 
Project or the information that's been forthcoming on the so-
called Karachi Project begins to explain what maybe we have 
been seeing over India in the last 5, 6 years.
    And if the information on the Karachi Project is correct, 
what it discusses is a very deliberate effort by the Pakistani 
intelligence working in tandem with groups like Lashkar-e-
Tayyiba, Harakat-ul-Jihadi Islami to infiltrate into India, 
recruit Indians to carry out attacks. Equip them with the 
capabilities to do so. So I think this is something that we 
need to continue to look at and explore, but it also shows that 
India has a two-pronged issue that it needs to address. And 
that is one, how does it deal with getting at the Pakistan-
based organizations. I think the U.S. and India have to work in 
tandem on that issue. And second, what can it do to prevent the 
recruitment of Indians?
    And that's why I brought up the idea of working together on 
countering violent extremism, working with communities to 
educate about the radicalization process. I think it's a good 
sign that the Home Minister has actually come forward and said 
hey, this is a problem we have to deal with. Many politicians 
have been reluctant to do so in the past.
    Mr. Royce. We're running out of time, so I'm going to ask 
one more question here. Some have suggested that the U.S. and 
Indian high-tech companies could collaborate to spur the next 
generation of homeland security technology. How could they 
better join forces?
    And then Mr. Latif, I'll ask you to what extent do U.S. 
restrictions on technology-sharing hamper U.S.-India 
counterterrorism cooperation, and what are the dangers of using 
such restrictions. If you could just briefly answer that, we'll 
then go to Mr. Sherman.
    Mr. Cilluffo. I mean, put very briefly and simply, 
obviously, India is home to a number of the more advanced 
technological companies, certainly from an IT perspective. And 
when you look at India's biggest deficits, to me it's the 
information sharing challenges they have between and among 
their various police entities and how they connect with other 
police entities and how they, in turn, connect with the Home 
Ministry. So I think there's a lot that they can do right there 
and there's a lot, I think, that the United States can do 
because we have to have similar integration challenges.
    If you really look back to 9/11, the greatest progress has 
been made in the sharing of information vertically and 
horizontally. So I think from an architectural standpoint, we 
have a lot that we can share. I know the Indians have visited 
the fusion centers. I know they have examined CJIS and N-DEX, 
some of our other systems. So I think there are opportunities 
there.
    Mr. Royce. Thank you, Mr. Latif. That last question?
    Mr. Latif. Yes, sir. On technology transfer with India and 
the United States, there has been a tremendous amount of 
technology that has been transferred to India since the civil 
nuclear deal was actually completed in 2008. So there's been a 
paradigm shift, I think, within the U.S. Government on 
transferring technology to India and we've seen that most 
recently with a very high percentage of licenses that have been 
granted.
    Mr. Royce. True enough. We're discussing the down side of 
risk on some of that.
    Mr. Latif. Right. Some of the risks would entail perhaps a 
potential that India might reengineer--reverse engineer some of 
the technologies. And also given their long relationship with 
Russia, there is a concern within the government that perhaps 
maybe some sensitive technologies could leak to Russia and be 
compromised.
    Mr. Royce. Thank you, Dr. Latif.
    Mr. Sherman?
    Mr. Sherman. Mr. Cilluffo, you point to police corruption 
in India, used to police departments looking the other way when 
there's vice. Are there elements in the police in India that 
would cooperate with Islamic terrorism or Maoist terrorism?
    Mr. Cilluffo. The corruption issue is a significant one and 
that must be addressed as well. As to whether or not you have 
police officers who are sympathetic to Islamic extremists or 
Maoists, I would have to say the likelihood is yes, that is 
indeed a concern.
    Mr. Sherman. So more, not so much corruption in the sense 
of doing it for money, but doing it out of genuine belief in 
the terrorist organization's objectives?
    Mr. Cilluffo. I don't see those as either or propositions. 
I think both are issues.
    Mr. Sherman. What can we do to make it easier for India to 
buy the technology it needs for its security and have the 
recent export control reforms benefit U.S.-India relations?
    Ms. Curtis?
    Ms. Curtis. As I mentioned, as we are building this 
strategic partnership and homeland security cooperation being a 
major part of that, U.S. companies will become involved and 
looking to the opportunities to help India solve some of its 
homeland security challenges. And protecting ourselves means 
partnering with others.
    Mr. Sherman. I understand how important it is. Are any of 
our witnesses aware of anything India was kind of interested in 
buying that they would face some problems in buying due to U.S. 
law?
    Mr. Latif. Mr. Sherman, I'm not aware of anything. As far 
as I'm aware anything that India has wanted to purchase in 
terms of technology for its counterterrorism or homeland 
security purposes, they have been granted. Unless it has 
application to missile development or nuclear programs, the 
Indians are allowed to purchase it.
    Mr. Sherman. So face recognition technology, drones.
    Mr. Latif. Well, on drones, it depends. I mean if we're 
looking at Predators, that might be a little bit of a problem.
    Mr. Sherman. Not so much as armed drones as surveillance 
drones.
    Mr. Latif. Right, right.
    Mr. Sherman. Moving to another issue, the Indian Prime 
Minister has identified the Maoist or Naxalite insurgency as 
the biggest internal security challenge. How does that 
insurgency affect India and its ability to focus on the Islamic 
extremist terrorist threat?
    Mr. Latif?
    Mr. Latif. Well, sir, it is a very big problem for the 
Indians. You've got a Naxalite insurgency that is spread over 
10 states. You don't have a central plan to attack the 
insurgency. And so as a result within India, because of the way 
that law enforcement relationships are set up, the state has 
primacy over the Center. What this means in terms of the amount 
of capacity that they have to be able to address the multitude 
of terrorist threats that they've got, they're a bit stretched. 
You've got a Naxalite insurgency. You've got Islamist 
terrorists coming up in Kashmir and then, of course, in the 
Northeast.
    Mr. Sherman. Well, thank you. My time in this room hasn't 
expired, but my time to get to that room is virtually expired.
    Mr. Royce. Well, thank you, Mr. Sherman. I want to thank 
each of our witnesses. I very much appreciate your testimony 
here today. We're going to have to adjourn for final passage on 
this legislation. Thank you.
    [Whereupon, at 2:49 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



               <F-dash>\\<careof><Rx><brit-pound>t<box>s\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
